Em loyees' Credit Union®

Truth in Lending Disclosure
Military APR Disclosure
Visa® Credit Cardholder Agreement
Effective October 21, 2020

This document contains the terms which govern your Credit Union Visa credit card Account (“Account”). Please review this document and keep it for your
records. In this document the words “you” and “your” mean the individual(s) who requested the Account or to whom we issued an account. “Card” means the
Visa Credit Card and any duplicates and renewals the Credit Union issues. “We,” “us,” “our,” and “Credit Union” mean State Employees’ Credit Union, the
issuer of the Card. “Our Mailing Address” is Cardholder Services, P.O. Box 28540, Raleigh, NC 27611-8540. Our business days are Monday through Friday,
8:30 am to 5:30 pm. Holidays are not included. Contact your local branch or if you need assistance outside of the Credit Union’s normal business hours, please
call us at 1-888-732-8562. Calls to the Credit Union may be recorded.
These Rules and Regulations apply to any Credit Union Visa credit card (“Card”) issued, or to be issued, by the Credit Union. Any Credit Union member
(“Cardholder”) who applies for, signs, accepts, uses, or authorizes the use of the Card agrees to be bound by these Rules and Regulations, and agrees that they
shall constitute the agreement between the Credit Union and the Cardholder governing the use of the Card. Furthermore, by signing the Card as specified
herein, the Cardholder expressly agrees to be bound by the provisions of these Rules and Regulations as to the rates and charges applicable to use of the Card.
If you do not agree to this Agreement, do not sign or use your Card and immediately contact your local branch or call us at 1-888-732-8562 to block the Card.
Calls to the Credit Union may be recorded.
Notifications and Changes: Any notice required to be given by these Rules and Regulations, by law, or desired to be given by the Credit Union will be
considered given if and when posted in the United States mail, postage prepaid, and addressed to the Cardholder at the last known address as shown on the
Credit Union’s records. The Credit Union may modify or amend this Agreement, from time to time, upon 45 days advance written notice to the Cardholder. The
new terms, including any increase or decrease in the charges, will apply to both new Cash Advances and Purchases made on and after the effective date. The
Cardholder can contact the Credit Union at any time to determine if changes have been made to this agreement since the date this document was printed. Call
us at 1-888-732-8562 or write to us at Our Mailing Address. Calls to the Credit Union may be recorded.
Ownership, Termination and Expiration: The Credit Union may, at any time, suspend your Card and your ability to use your Card, for any reason allowed by
law, such as if we suspect possible fraud or suspicious activity, or for security reasons. The Card remains the property of the Credit Union at all times. We may,
at any time and for any reason, terminate a Card and your use of the Card and may request the Card to be surrendered. Your Card will expire on the last
calendar day of the month of the expiration date on the Card. Upon termination or expiration, we may stop accepting transactions from the Account and we
may decline to authorize a transaction with the Card. You agree not to use or attempt to use any expired or revoked Account to obtain credit. You or anyone
jointly liable for the Account may voluntarily terminate the Account at any time by notifying us orally or in writing. However, this will not relieve you or any joint
owners from liability for the repayment of any obligations arising from the use of the Account.
Use of Card: You may only buy goods or services from businesses displaying the Visa sign (“Merchant”), or borrow cash from the Credit Union or other
institutions displaying such signs. You must follow any reasonable and proper procedures by those honoring the Card. In order for the Card to be valid, it must
be signed by the Cardholder or Authorized User. The Cardholder must be a Credit Union member. By signing, activating, using, or allowing another person to
use the Card, you agree to this Agreement and are responsible for all authorized transactions and cash advances made by the use of this Card.
Credit Limit: Your credit limit is set by the Credit Union and may be changed from time to time with notice to the Cardholder. The Credit Union may, at its
option, recognize transactions (and extend credit) which will cause the Cardholder’s outstanding balance to exceed the maximum credit limit.
Activating Your Card: You must activate your Card by calling 1-866-322-2377. The Card is not valid until it has been activated.
Authorized Users: You may request a Card for an Authorized User in the name of a person identified by you at any time. We may request information about
the person to whom you want us to issue the Card and reserve the right to deny your request for an Authorized User Card. You are responsible for all
transactions made by an Authorized User. You have the right to revoke an Authorized User at any time either by notifying your local branch or by calling us at
1-888-732-8562. Calls to the Credit Union may be recorded.
Your Responsibilities: You are responsible for the following:
• You agree not to use the Card if such use would cause your Account to exceed the credit limit.
• You agree to pay immediately upon demand any amount in excess of the maximum credit limit.
• You are responsible for all transactions and cash advances made through the use of your Card by yourself, or any Authorized User, or any person you
allow to use your Card.
• You will not authorize anyone else to use your personal Card (other than Authorized Users added to the Account) and you will not transfer your Card to
anyone. If you do give your Card to another individual, you will be responsible for all transactions and cash advances made through the use of your Card.
• You agree to notify us AT ONCE if you believe your Card has been lost or stolen or if someone has used or may use your Card without your permission
by contacting your local branch immediately or by calling us at 1-888-732-8562 or 919-857-2150 locally in Raleigh. You may also write us at Our Mailing
Address. Calls to the Credit Union may be recorded.
• You agree to cooperate with us in our investigation of any possible unauthorized use of your Card.
• You agree to retain copies of all sales slips, cash advance slips, or any other instrument acknowledging or recognizing a transaction, and to use such
copies to identify transactions reported on your periodic statement.
• You will not use your Card in an illegal transaction or in connection with an Internet gambling transaction.
Page 1 of 4

• You will take reasonable steps to protect the security and confidentiality of the Personal Identification Number (PIN) for your Card.
Fees
Annual Fee

Interest Rates and Interest Charges
Annual
Percentage
Rate (APR)
for
Purchases

None

7.75%
This APR will vary based on the 26-week
Treasury Bill rate rounded up to the nearest
1/4%*

Transaction Fees
• Balance Transfer

None

APR for
Balance
Transfers

7.75%
This APR will vary based on the 26-week
Treasury Bill rate rounded up to the nearest
1/4%*

• Cash Advance

None

• Foreign
Transaction

1% of each transaction
in U.S. dollars

APR for Cash
Advances

7.75%
This APR will vary based on the 26-week
Treasury Bill rate rounded up to the nearest
1/4%*

• ATM

$0.75 for each transaction

Penalty Fees

Paying
Interest

For Credit
Card Tips
from the
Consumer
Financial
Protection
Bureau

Your due date is at least 21 days after the
close of each billing cycle. We will not
charge you any interest on purchases if you
pay your entire balance by the due date each
month. We will begin charging interest on
cash advances on the transaction posting
date.

To learn more about factors to consider
when applying for or using a credit card, visit
the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/learnmore.

• Late Payment

Up to $5

• Returned Payment

$5

How We Will Calculate Your Balance
We calculate the interest charge on your Account by
applying the periodic rate to the “average daily balance”
of your Account (including current transactions). To
determine the “average daily balance” we take the
beginning balance of your Account each day, add any
new purchases, and subtract any payments or credits.
This gives us the daily balance. Then we add up all the
daily balances for the billing cycle and divide the total by
the number of days in the billing cycle. This result is the
“average daily balance.”

*The APR equals 7.5% plus the Index Rate. The Index Rate is the 26-week Treasury Bill rate set at the first T-bill Auction held each quarter in January, April, July,
and October, and adjusted up to the nearest ¼%. Because the Index Rate is subject to change each quarter, the APR is as well.
Billing Rights information on your rights to dispute transactions and how to exercise those rights is provided in this Agreement.
Rates and Charges: You agree to the rates and charges and methods of computation set forth in this document which are made in accordance with the Truth
in Lending Law. The Monthly Periodic Rate for the monthly billing cycle is equal to 1/12 of the Annual Percentage Rate (APR). The Monthly Periodic Rate will be
computed to 1/100th of one percent. The method for calculating the APR is explained below. The APR is subject to change on the first day of the first billing
cycle at the beginning of each quarter (January, April, July, and October). If the APR should change, then the Monthly Periodic Rate will change, and the new
rate will take effect on the first day of the billing cycle of January, April, July, and October. The APR will equal 7.5 percentage points plus the Index Rate. The
Index Rate is the 26-week Treasury Bill rate set at the first Auction held in January, April, July, and October and adjusted up to the nearest 1/4%. Increases in
the APR will result in a higher finance charge which may result in additional payments over a longer period in order to repay the purchases balance or your cash
advance balance. The increased APR will apply to any balance outstanding on the effective date of the change as well as to future purchases and advances.
There is no minimum APR. The APR will not exceed 18% per year or the maximum permitted by applicable law, whichever is lower. The APR and the Monthly
Periodic Rate used to compute your finance charge appears on your monthly statement.
Foreign Currency Transactions: Foreign currency transactions will be converted to U.S. Dollars by Visa. Under the currency conversion procedure that Visa
currently uses, the non-U.S. dollar transaction amount is converted into a U.S. dollar amount by multiplying the transaction amount in the non-U.S. dollar
currency by a currency conversion rate. The conversion rate that Visa typically uses is either a government-mandated rate or a wholesale rate provided to Visa.
The currency conversion rate that Visa uses for a particular transaction is the rate in effect for the applicable currency at the time the transaction is processed.
Page 2 of 4

This rate may differ from the rate in effect when the transaction occurred or when it was posted to your Account, and may be higher than the rate you could
have gotten if you had converted U.S. dollars into cash. If a transaction initially in a foreign currency is converted to U.S. dollars before it is entered into the Visa
network, the conversion rates and fees of the company that did the conversion will apply. Visa applies a 1% International Transaction fee to foreign currency
transactions. The fee is applied after converting the transaction currency into U.S. dollars. Two separate entries will appear on your statement, one for the
foreign transaction and one for the International Transaction fee. The State Employees’ Credit Union does not apply any additional conversion fee other than
what Visa imposes.
Refusal to Honor Card: The Credit Union has no liability or responsibility if any Merchant refuses to honor the Card.
Notice of Negative Information: The Credit Union may report information about your Account to credit bureaus. Late payments, missed payments, or other
defaults on your Account may be reflected on your credit report.
Events of Default: At the Credit Union’s option, all amounts due from you to the Credit Union will become immediately due and payable if any of the following
circumstances apply: (a) default by the Cardholder in making any payment when due and payable, (b) default by the Cardholder under any provision of these
Rules and Regulations, (c) the Cardholder’s death or becoming insolvent or making an assignment for the benefit of creditors, (d) a petition being filed or any
other proceeding being commenced under the Federal Bankruptcy Act or any state insolvency statute by or against the Cardholder, or (e) a receiver being
appointed for, or a writ or order of attachment, levy or garnishment being issued against the Cardholder or any of the Cardholder’s property, assets or income.
To the extent permitted by law, you agree to pay attorney’s fees and collection costs we incur in collecting amounts you owe us and enforcing our rights under
this Agreement.
Obtaining Account Information/Receipts: You may obtain information about the balance of your Account by calling our ASK-SECU Automated Voice Response
number at 1-800-275-7328 or locally in Raleigh at 919-839-5400. This information, along with a history of card transactions, is also available online through
Member Access at www.ncsecu.org. You can get a receipt at the time you make any transaction with your Card at an ATM or point-of-sale terminal. A receipt
may not be required for a point-of-sale transaction if the amount of the transaction is $50 or less.
Periodic Statements: A statement will be mailed to you after the 20th of each month in which there was a balance or activity on your Account. Statements are
also available through Member Access at www.ncsecu.org. We reserve the right to stop periodic statements if your Account is inactive. Notify the Credit Union
immediately of any charge or item which you believe to be incorrect or subject to dispute. Any charge or item on your monthly statement will be considered to
be correct 60 days following the statement mail date if written notification from you is not received by that time.
Payments: If you choose to pay less than the total New Balance as shown on your monthly statement, a minimum payment is required to be made. The
minimum payment is computed as 3% of your total New Balance or $25, whichever is greater. Generally, payments above the Minimum Payment due will be
applied first to higher interest rate balances and then to lower interest rate balances. This may help you pay off your highest interest rate balances more quickly
and reduce your interest charges. Payments received at a branch office by 5:30 pm Monday through Friday will be credited the same business day. Payments
received electronically through an optional payment service, including online through Member Access, or through ASK-SECU Voice Response, will be credited
based on the terms presented during use of the service.
Late Charges: If you fail to make the Minimum Payment shown on your monthly statement by the 5 th calendar day after the Payment Due Date
shown on your monthly statement, we will charge you a late fee of $5 or the amount of the Minimum Payment if it is less than $5 . You will only
have to pay the late charge once on the same late payment. Any payment you make will be treated as being your oldest payment due.
Overdraft Transfer Service: You may request Overdraft Transfer Service if you maintain a Credit Union checking account and a Credit Union issued Visa card.
Overdraft Transfer cash advances will be made in $50 increments up to your credit limit less any outstanding balance. If the available amount is less than $50, all
funds available will be transferred if these funds are sufficient to cover the item(s) in the checking account. You understand that the regular increment amount is
subject to change by the Credit Union without notice. If your Visa credit card Account is 30 or more days past due, or over the approved credit limit, Overdraft
Transfer Service will not be available until the Account is current. Rates and methods of computation are the same as other cash advances.
Balance Transfers: All rates and offers are subject to change. The interest rates applicable to purchases or cash advances and for prior promotional/intro
balances remain unchanged. Balance transfers are treated as cash advances, so interest accrues from the date the transfer is posted to your account. Balance
transfers of other SECU loans are not eligible for promotions. SECU may stop offering promotional/intro rates for new balance transfers at any time and without
prior notice. You agree to allow 30 days to process your request, pay the amount(s) authorized, and transfer the balances to your SECU credit card Account. You
may transfer up to your available credit, not to exceed your credit limit authorized by SECU. Please continue to make minimum payments on your other credit
card(s) until the balance(s) have been transferred. Any overpayments must be refunded by the other institution. Payment of the amount(s) authorized by you
may or may not satisfy any outstanding balance(s) on the designated account(s). SECU is not responsible for any remaining balance or additional charges with
regard to such accounts, or for any charges resulting in any delay in the payment and transfer of balances. SECU reserves the right to refuse multiple transfers
from the same credit card. At expiration of the promotional/intro rate period, the “APR for purchases,” currently 7.75%, will apply to any remaining balance.
Refunds and Merchant Disputes: If you are entitled to a refund or credit for any reason, you agree to accept a credit to your Card instead of a cash refund, if
the merchant does not provide cash refunds. You will settle all disputes about purchases you make using your Card with the merchant who honored the Card.
We are not responsible for the delivery, quality, safety, legality or other aspect of goods or services that you purchase from others with the Card.
Liability for Unauthorized Use: If you notice the loss or theft of your Card or a possible unauthorized use of your Card, you should notify us immediately at the
address listed on your statement or Cardholder Services, P.O. Box 28540, Raleigh, NC 27611-8540, or call us at 1-888-732-8562. Calls to the Credit Union may
be recorded. You may also contact us through Member Access at www.ncsecu.org. You will not be liable for any unauthorized use that occurs after you notify
us. You may, however, be liable for unauthorized use that occurs before your notice to us. In any case, your liability will not exceed $50.
Page 3 of 4

What To Do if You Discover a Mistake on Your Statement: If you believe there is an error on your statement, notify us in writing at the address on your
statement or Cardholder Services, P.O. Box 28540, Raleigh, NC 27611-8540. You may also contact us through Member Access at www.ncsecu.org. In your
letter, please provide the following information:
• Account Information: Your name and Account number.
• Dollar Amount: The dollar amount of the suspected error.
• Description of Problem: If you believe there is an error on your statement, describe the error and why you believe it is a mistake.
You must contact us within 60 days after the error appeared on your statement. You must notify us of any potential errors in writing (or electronically). You
may call us, but if you do we are not required to investigate any potential errors and you may have to pay the amount in question.
While we investigate whether or not there has been an error, the following are true:
• We cannot try to collect the amount in question, or report you as delinquent for that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount. But, if we determine that we
made a mistake, you will not have to pay the amount in question or any interest or other fees related to that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
Your Rights if You Are Dissatisfied with Your Credit Card Purchases: If you are dissatisfied with the goods or services that you have purchased with your
Card, and you have tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
• The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been
more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
• You must have used your Card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your credit card
Account do not qualify.
• You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing (or electronically) at Our Mailing Address or through
Member Access at www.ncsecu.org. While we investigate, the same rules apply to the disputed amount as discussed above. After completion of our
investigation, we will notify you of our decision. At that point, if we believe you owe an amount and you do not pay, we may report you as delinquent.
Military Lending Act Covered Borrower: A covered borrower is identified by the Military Lending Act as someone that at the time of loan origination is a
member of the Armed Forces serving on active duty, active Guard duty, or Reserve duty. A dependent of someone on active duty is also a covered borrower
under the Military Lending Act.
Notice of Military APR: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed Forces on active duty or active Guard or Reserve duty and his/her dependent(s) may
not exceed an annual percentage rate of 36% for certain types of consumer loans. This rate must include, as applicable to the credit transaction or account: the
costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit
card account).
According to Part 232 of Title 32 of the Code of Federal Regulations for Limitations on Terms of Consumer Credit Extended to Service Members and Dependents,
a creditor is required to provide a covered borrower an oral disclosure relating to the extension of credit.
You may obtain your complete oral disclosure by calling us toll-free at: 1-855-491-7328.
Upon activation, the cardholder acknowledges receipt of a copy of the MILITARY APR DISCLOSURE STATEMENT and one copy of the Federal Truth in Lending
Disclosure Statement, all given by lender in compliance with Truth in Lending Simplification and Reform Act of 1980 (Public Law 96-221) and the Military
Lending Act.

OCS #1604419

Page 4 of 4

